Nos. 19-267, 19-348

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU, RESPONDENT
ST. JAMES SCHOOL, PETITIONER
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE ETHICS AND RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST
CONVENTION, THE RIGHT REVEREND DEREK JONES,
THE ALEPH INSTITUTE, THE ASSEMBLIES OF GOD
(USA), AND STEWARDS MINISTRIES,
AS AMICI CURIAE SUPPORTING PETITIONERS
SARAH M. HARRIS
Counsel of Record
MATTHEW D. HEINS
SUSANNA R. ALLEN
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sharris@wc.com

TABLE OF CONTENTS

Page
Interest of Amici Curiae ............................................................... 1
Summary of Argument .................................................................. 2
Argument ......................................................................................... 6
I. The Ministerial Exception Is an Essential Shield
Against Unconstitutional Governmental Intrusion
into Religious Life ............................................................. 6
II. Respondents’ and the Ninth Circuit’s Approach
Would Threaten Myriad Religious Communities ....... 14
Conclusion ...................................................................................... 19

(I)

II
TABLE OF AUTHORITIES

Page
Cases:
Alicea-Hernandez v. Catholic Bishop
of Chi., 320 F.3d 698 (7th Cir. 2003) ............... 12, 13
Cannata v. Catholic Diocese of Austin,
700 F.3d 169 (5th Cir. 2012) ............................... 9, 15
Corp. of Presiding Bishop of Church of
Jesus Christ of Latter-day Saints v.
Amos, 483 U.S. 327 (1987) ................................ 16, 17
Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah,
508 U.S. 520 (1993) .................................................. 13
EEOC v. Catholic Univ. of Am.,
83 F.3d 455 (D.C. Cir. 1996) ................................... 11
Fowler v. Rhode Island,
345 U.S. 67 (1953) .................................................... 13
Fratello v. Archdiocese of N.Y.,
863 F.3d 190 (2d Cir. 2017)................................. 9, 12
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC,
565 U.S. 171 (2012) ......................................... passim
Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N.
Am.,
344 U.S. 94 (1952) ............................................ 6, 8, 19
NLRB v. Catholic Bishop of Chi.,
440 U.S. 490 (1979) ............................................ 17, 18
Rayburn v. Gen. Conference of
Seventh-Day Adventists,
772 F.2d 1164 (4th Cir. 1985) ................................. 11

III
Page
Cases continued—
Serbian E. Orthodox Diocese for U.S.
& Can. v. Milivojevich,
426 U.S. 696 (1976) .............................................. 8, 16
Shaliehsabou v. Hebrew Home of
Greater Wash., Inc.,
363 F.3d 299 (4th Cir. 2004) ................................... 12
Sterlinski v. Catholic Bishop of Chi.,
934 F.3d 568 (7th Cir. 2019) ................... 9, 12, 13, 15
Temple Emanuel of Newton v. Mass.
Comm’n Against Discrimination,
975 N.E.2d 433 (Mass. 2012) ............................ 12, 15
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1871) ................................ 7, 8
Constutitions
U.S. Const. amend. I ....................................................... 7
Other Authorities
11 Encyclopedia of Religion
(2d ed. 2005) ............................................................. 10
Pew Research Center, America’s
Changing Religious Landscape
(May 12, 2015),
https://tinyurl.com/reportpew ............................... 10
Plymouth Bretheren Christian Church,
Faith and Beliefs, Why Don’t the
PBCC Have Clergy?,
https://tinyurl.com/clergypbcc
(last visited Feb. 10, 2020) ...................................... 11

IV
Page
Other Authorities continued—
Southern Baptist Convention, Position
Statements,
https://tinyurl.com/sbcposition (last
visited Feb. 10, 2020) .............................................. 11
Southern Baptist Convention, Resolution
on the Priesthood of the Believer
(June 1988),
https://tinyurl.com/sbcresolution .......................... 11

INTEREST OF AMICI CURIAE *

The Ethics and Religious Liberty Commission
(“ERLC”) is the moral concerns and public policy entity
of the Southern Baptist Convention (“SBC”), the nation’s
largest Protestant denomination, with over 46,000
churches and 15.2 million members. The ERLC is
charged by the SBC with addressing public policy affecting such issues as religious liberty, marriage and family,
the sanctity of human life, and ethics.
The Right Reverend Derek Jones is the Bishop of the
Armed Forces and Chaplaincy for the Anglican Church in
North America. The Anglican Communion is the third
largest Christian faith communion in the world. Bishop
Jones fields professionally credentialed and endorsed
chaplains to the United States Armed Forces, Veterans
Administration, government agencies, and to numerous
civilian agencies. He is also the current Chair of the National Conference on Ministry to the Armed Forces and is
a recognized subject matter expert on Chaplaincy and Religious Liberty.
The Aleph Institute is a 35-year-old non-profit Jewish
organization dedicated to providing spiritual support and
addressing the needs of Jewish persons in institutional

*
Pursuant to Rule 37.6, amici affirm that no counsel for a party authored this brief in whole or in part and that no person other than
amici or their counsel have made any monetary contributions intended to fund the preparation or submission of this brief. Pursuant
to Rule 37.3, amici affirm that all parties have either consented to the
filing of this brief or filed blanket letters of consent to the filing of
amicus briefs with the Clerk’s Office.

(I)

2
environments such as prisons, mental health facilities, and
rehabilitation centers throughout the United States.
The Assemblies of God (USA) is a Pentecostal Christian denomination with more than 13,000 churches and
over 3 million adherents. It is part of the World Assemblies of God Fellowship, which has more than 69 million
adherents worldwide and is the world’s largest Pentecostal denomination and fourth largest Christian fellowship.
Stewards Ministries is a non-profit organization that
exists to support the Plymouth Brethren, an evangelical
Christian movement. In general, the Plymouth Brethren
do not have formal membership or pastors and meet in
independent, local assemblies.
Amici share a fundamental interest in preserving the
right of religious organizations to decide, free from state
interference, matters of religious government, faith, and
doctrine. Amici repeatedly encounter issues concerning
who may serve in their ministry, including as parties to
litigation. The ability of amici to decide for themselves
who among their members may be entrusted to perform
religious functions central to their faith is the cornerstone
of their freedom to pursue their own religious missions independent of secular control. When the government dictates which individuals amici can hire to perform religious functions, and when those individuals can be fired,
the government extinguishes the religious liberty that the
Religion Clauses protect from governmental interference.
SUMMARY OF ARGUMENT

This Court should reverse the decisions below and ensure that religious organizations can continue to rely on
the First Amendment’s guarantee of governmental noninterference in fundamental matters of faith. Since the

3
Founding, it has been well settled that when religious organizations make decisions about matters of faith, doctrine, or internal governance, the Religion Clauses of the
First Amendment bar the government from secondguessing those choices.
Few determinations matter more to religious organizations’ fulfillment of their pastoral missions than decisions about which members to entrust with religious functions. When it comes to employment disputes between a
religious organization and those employees carrying out
central aspects of the faith, the Religion Clauses necessarily trump otherwise-applicable employment laws, because it is “impermissible for the government to contradict a church’s determination of who can act as its ministers.” Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC, 565 U.S. 171, 185 (2012).
This so-called “ministerial exception” is no mere technicality of employment law. Rather, it is a vital safeguard
against governmental intrusion on “the authority to select
and control who will minister to the faithful,” which “is the
church’s alone.” Id. at 195. This Court in Hosanna-Tabor
thus rightly refused to “adopt a rigid formula” to define
which employees of a given religious group fall within the
ministerial exception. Id. at 190. Rather, the Court took
a holistic approach, looking at various facts relevant to
whether someone performs functions commonly understood within the faith as core religious duties. See id. at
191-92. Certainly, Hosanna-Tabor nowhere suggests
that the absence of a formal religious title or training
means that the ministerial exception does not apply.
Justices Thomas, Alito, and Kagan, in two concurrences, further emphasized that the ministerial exception
must respect religious authorities’ determinations re-

4
garding which members of the faith are performing central religious functions. See id. at 196 (Thomas, J., concurring); id. at 199 (Alito, J., concurring). Titles, training,
and other formal indicia of status matter—but as possible
evidence of the significance of the employee’s religious duties, not as independently dispositive facts. See id.
And for good reason. Treating the formalities of titles
and training as dispositive risks elevating form over substance, with potentially disastrous results for religious liberty in a nation of religious pluralism. Some religions (like
the Lutheran faith at issue in Hosanna-Tabor) use titles
and formal training to identify members entrusted with
significant spiritual duties. But other faith groups, including amici here, eschew such formalities, or give a multitude of members seemingly formal titles. Only by focusing on the substance of what particular members do—
namely, whether the religious organization to which they
belong believes that they perform key religious duties—
can courts respect the divergent ways that different religions worship, teach, and self-govern. That understanding of the ministerial exception is essential to avoid discriminating against minority or less hierarchical religious
groups, which the Religion Clauses prohibit.
Respondents’ approach and the decisions below flout
that understanding. Contrary to respondents’ account,
see OLG Br. in Opp. to Cert. 20-23; StJ. Br. in Opp. to
Cert. 30-35, the Ninth Circuit improperly transformed the
ministerial exception into a rigid straightjacket that deprives religious organizations of the essential freedom to
decide who should perform central duties of a faith. The
court considered it insufficient that respondent Morrissey-Berru—a teacher at a Catholic school—had “significant religious responsibilities” for core aspects of religious instruction. OLG. App. 3a. The court rather found

5
it dispositive that respondent did not “have any religious
credential, training, or ministerial background,” or “hold
herself out to the public as a religious leader or minister,”
id., unlike the Lutheran schoolteacher in Hosanna-Tabor.
See also StJ. App. 10a-12a.
Under respondents’ and the Ninth Circuit’s approach,
even if employees indisputably perform core religious
functions, federal employment rules would supersede a
religious organization’s freedom to choose who carries out
those functions—unless the religious organization also
formally credentials the employee. A test that favors titles and other formalities over an employee’s function and
the religious organization’s own good-faith view of the employee’s role would vitiate the ministerial exception and
impose unconstitutional choices on a broad variety of religious groups. Amici, for instance, vary widely with regard to who performs the central functions of their faiths,
and how. To avail themselves of the ministerial exception,
all faith groups would have to ensure that anyone entrusted with core functions of their faith shared all the titles and training the Lutheran Church bestowed upon
teacher Cheryl Perich—even though many religious
groups do not practice formal ordination, require formal
training, or grant formal titles.
Such governmental micromanagement of how religious organizations structure their own affairs is anathema to the Religion Clauses, and would replace religious
pluralism with a one-size-fits-all set of organizational
rules at an intolerable spiritual price. Not only that, forcing other faith groups to conform to organizational precepts of the Lutheran Church would impermissibly favor
one faith over multitudes of others.
Yet the alternative path that respondents and the decisions below would leave for religious organizations is

6
even more troubling. Without the ministerial exception,
religious organizations would lose control over some of
their most sensitive decisions. Here as elsewhere, personnel is policy: “[B]oth the content and credibility of a religion’s message depend vitally on the character and conduct of its teachers.” Hosanna-Tabor, 565 U.S. at 201
(Alito, J., concurring). Churches, synagogues, and
mosques alike would have to bow to the government’s employment criteria for hiring and firing individuals entrusted with key aspects of their faiths. The government
could saddle religious organizations with clergy bent on
thwarting core tenets of the faith, or teachers who repudiate the very beliefs they are entrusted with inculcating
in their students. Without a robust ministerial exception,
the government (whether through employment laws or
otherwise) would thrust itself into the very “matters of
church government as well as those of faith and doctrine”
that the Religion Clauses exist to protect “from state interference.” Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am., 344 U.S. 94, 116 (1952).
For over two hundred years, the Religion Clauses
have protected religious groups from secular interference
in ecclesiastical affairs. Those organizations, not the government, should remain in sole charge of choosing their
own shepherds for their flocks.
ARGUMENT
I.

The Ministerial Exception Is an Essential Shield Against
Unconstitutional Governmental Intrusion into Religious
Life

1. The Constitution promises religious groups the
freedom to make their own decisions about matters of
governance, faith, and doctrine free from governmental
interference. The ministerial exception flows directly

7
from that promise, and serves a crucial role in guarding
against governmental encroachment on matters of faith.
Long before courts recognized a specific “ministerial
exception,” it was well settled that religious groups enjoy
freedom from governmental control in matters of faith
and self-governance. The notion that the government can
have “no role in filling ecclesiastical offices” pre-dated the
Founding. See Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC, 565 U.S. 171, 181-87 (2012). The
idea that religious faith, practice, and governance should
be free from governmental control “was addressed in the
very first clause of Magna Carta,” and inspired some of
the earliest journeys to the New World. Id. at 182-83.
That bedrock principle of non-interference informed
the First Amendment’s Religion Clauses, which together
provide that “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof.” U.S. Const. amend. I. The Founding generation
understood these Clauses to circumscribe governmental
involvement in filling ecclesiastical offices: “The Establishment Clause prevents the Government from appointing ministers, and the Free Exercise Clause prevents it
from interfering with the freedom of religious groups to
select their own.” Hosanna-Tabor, 565 U.S. at 184.
A long line of this Court’s decisions reinforced the
point. The Court in Watson v. Jones observed that determinations of decision-making bodies of a church group
cannot be overruled through secular government or lawmaking as to “questions of discipline, or of faith, or ecclesiastical rule, custom, or law.” 80 U.S. (13 Wall.) 679, 727
(1871). Nearly a century later, the Court similarly held
that the government of New York had no power to compel
Russian Orthodox churches in the state to recognize the
authority of the governing body of the North American

8
church, reasoning that “the Church’s choice of its hierarchy” was “strictly a matter of ecclesiastical government.”
Kedroff v. St. Nicholas Cathedral of Russian Orthodox
Church in N. Am., 344 U.S. 94, 96-97, 115, 119 (1952). The
Court likewise rejected the notion that civil courts could
second-guess whether an ecclesiastical tribunal should remove a bishop, regardless of whether civil courts believed
the church had complied with its own laws and regulations. Serbian E. Orthodox Diocese for U.S. & Can. v.
Milivojevich, 426 U.S. 696, 724-25 (1976).
In short, the Court has long understood the Religion
Clauses to protect not only the “[f]reedom to select the
clergy,” Kedroff, 344 U.S. at 116, but also the general right
of religious groups to organize, regulate, and govern
themselves in accordance with their own principles. Pet.
Br. 27-33. Nor is such a rule unfair: employees of religious groups, after all, give “implied consent to [church]
government, and are bound to submit to it,” given the special ecclesiastical nature of that relationship. Watson, 80
U.S. at 729.
2. The Court’s reasoning in Hosanna-Tabor underscores that the ministerial exception must be sufficiently
broad to preclude governmental interference into which
individuals will carry out functions a religious group
deems critical to its mission. Pet. Br. 36-38. The Court
explained that “[r]equiring a church to accept or retain an
unwanted minister, or punishing a church for failing to do
so, intrudes upon more than a mere employment decision”
and instead “interferes with the internal governance of
the church, depriving the church of control over the selection of those who will personify its beliefs.” 565 U.S. at
188. And a “minister,” the Court explained, is not just
someone holding that specific title, or confined to “the
head of a religious congregation.” Id. at 190. Rather, the

9
ministerial exception recognizes that the Religion Clauses
protect religious groups’ entitlement to control “who will
preach their beliefs, teach their faith, and carry out their
mission.” Id. at 196. Determining which individuals perform those core religious functions is central to the inquiry.
True, the Court looked to a host of facts relevant to
understanding why a “called” Lutheran teacher fell
within the ministerial exception. For instance, the Court
cited “the formal title given Perich by the Church, the
substance reflected in that title, her own use of that title,
and the important religious functions she performed for
the Church.” Id. at 192. Respondents contend that this
analysis shows that the applicability of the ministerial exception requires balancing function against formal credentials and education. OLG Br. in Opp. to Cert. 2, 9; StJ.
Br. in Opp. to Cert. 1-3.
But the Court looked at these considerations as indicia
of the respondent’s “role in conveying the Church’s message and carrying out its mission,” Hosanna-Tabor, 565
U.S. at 192—in other words, her degree of involvement in
performing religious functions. And the Court cautioned
that these factors were not independently demonstrative
facts, rejecting any “rigid formula for deciding when an
employee qualifies as a minister.” Id. at 190; see, e.g., Fratello v. Archdiocese of N.Y., 863 F.3d 190, 204-05 (2d Cir.
2017) (“Hosanna-Tabor instructs only as to what we
might take into account . . . it neither limits the inquiry to
those considerations nor requires their application in
every case.”); Cannata v. Catholic Diocese of Austin, 700
F.3d 169, 177 (5th Cir. 2012) (similar); Sterlinski v. Catholic Bishop of Chi., 934 F.3d 568, 569 (7th Cir. 2019)
(same).

10
3. Looking to the substance of how religious organizations characterize employees’ religious duties is also essential to preserve a uniform rule that treats the nation’s
diverse faith groups equally: only employees whom the
religious organization in good faith believes are performing core religious functions fall within its ambit. Over 100
religions or categories of religions count Americans as adherents. See Pew Research Center, America’s Changing
Religious Landscape 21 (May 12, 2015), https://tinyurl.com/reportpew. And in every religion, certain
members perform core religious functions, like leading a
congregation in worship, proclaiming the faith, instructing adherents, or otherwise carrying out a religious mission.
But faith traditions vary widely in their conceptions of
what core religious functions of their faith entail, and who
performs them. See Hosanna-Tabor, 565 U.S. at 197
(Thomas, J., concurring). For instance, Protestant faiths
often designate “ministers,” but that term “is rarely if
ever used” to reference clergy “by Catholics, Jews, Muslims, Hindus, or Buddhists.” Id. at 198 (Alito, J., concurring); see also 11 Encyclopedia of Religion 7451-52 (2d ed.
2005) (Protestantism is historically characterized by “ambiguity about the lay-clerical distinction,” and “in almost
all cases they retained a specially sanctioned clergy, ascribed great authority also to the laity, and left the status
of both ambiguous.”). Depending on the particular faith,
a religious organization’s failure to use the term “minister” to describe an employee thus may shed no light on
whether that person in fact serves a crucial role in worship
or religious ceremonies.
Similarly, “the concept of ordination as understood by
most Christian churches and by Judaism has no clear
counterpart in some Christian denominations and some

11
other religions,” and the existence and importance of ordination varies widely among faiths. See Hosanna-Tabor,
565 U.S. at 198 (Alito, J., concurring). In the Catholic
faith, for instance, nuns are not ordained, but few could
doubt that their functions are fundamental to advancing
the faith. See, e.g., EEOC v. Catholic Univ. of Am., 83
F.3d 455 (D.C. Cir. 1996). Other religions also reserve
separate, non-ordained roles for women, who, under the
tenets of their faith, cannot serve as ordained ministers.
Rayburn v. Gen. Conference of Seventh-Day Adventists,
772 F.2d 1164, 1165 (4th Cir. 1985) (recognizing that “in
the Seventh-day Adventist Church women may not stand
for ordination”).
In other faiths, including those of several amici, there
are overlapping duties between ordained and lay believers. Baptists generally practice a priesthood of all believers, under which laypersons have the same right as ordained ministers to communicate with God, interpret
scripture, and minister in the Lord’s name. See Southern
Baptist Convention, Position Statements, https://tinyurl.com/sbcposition (last visited Feb. 10, 2020); Southern Baptist Convention, Resolution on the Priesthood of
the Believer (June 1988), https://tinyurl.com/sbcresolution.
Some other faiths eschew any concept of clergy or formalized hierarchical structure altogether. For instance,
as a core tenet of their faith, the Plymouth Brethren reject ecclesiastical arrangement and focus instead on an individual’s direct relationship with God. See Plymouth
Brethren Christian Church, Faith and Beliefs, Why Don’t
the PBCC Have Clergy?, https://tinyurl.com/clergypbcc
(last visited Feb. 10, 2020).
Likewise, faith traditions vary widely as to whether
and to what degree those performing important religious

12
functions must receive formal training, and what that
training entails. See Hosanna-Tabor, 565 U.S. at 198
(Alito, J., concurring). A Catholic school principal, for example, may not need to “meet any formal religious-education requirements,” but may be required to be a “practicing Catholic in union with Rome, with a commitment to
the teachings of the Church.” Fratello, 863 F.3d at 208.
The person in such a role nonetheless functions as a critical example of the faith and plays a central role in inculcating its precepts. See id. at 209. The same goes for
Catholic church organists, see Sterlinski, 934 F.3d at 569,
and Jewish schoolteachers, Temple Emanuel of Newton
v. Mass. Comm’n Against Discrimination, 975 N.E.2d
433, 443 (Mass. 2012), neither of whom necessarily undergo formal doctrinal training. And in the Baptist faith,
while church leaders often have some religious training,
none is required; indeed, many Protestant groups have
historically rejected any requirement of formal theological training.
Positions in some faith traditions also have no corresponding religious significance for others. A “mashgiach”
in the Orthodox Jewish tradition, for instance, supervises
food preparation. Shaliehsabou v. Hebrew Home of
Greater Wash., Inc., 363 F.3d 299, 301-02 (4th Cir. 2004).
But that person does so pursuant to authorization from
Orthodox rabbis, ensures that food preparation is kosher,
and may make judgment calls about compliance with Jewish law. Id. Those functions, in turn, ensure compliance
with kosher dietary laws, which the Orthodox Jewish faith
considers a central aspect of the religion. Id. Likewise,
“communications director” is not a role that exists in
every faith group. But a communications director for the
Catholic diocese “is often the primary communications
link to the general populace” and is “critical in message

13
dissemination, and a church’s message, of course, is of singular importance.” Alicea-Hernandez v. Catholic Bishop
of Chi., 320 F.3d 698, 704 (7th Cir. 2003).
In short, the ministerial exception looks to how a given
faith tradition defines religious functions, not to the labels
attached to different employees, precisely because “[d]ifferent religions will have different views on exactly what
qualifies as an important religious position.” HosannaTabor, 565 U.S. at 200 (Alito, J., concurring). The stakes
of maintaining that understanding of the ministerial exception are difficult to exaggerate. A wide array of religious organizations, including amici, depend on the ministerial exception to preserve their autonomy to structure
their own affairs and to determine the best messengers
for their faiths. From a religious employer’s perspective,
choosing “who will guide it on its way” depends more on
the functions that a person serves than on virtually any
other consideration. Id. at 196. (Alito, J., concurring).
Further, this approach to the ministerial exception
avoids privileging faith groups that rely on more formal
structures or designations at the expense of the many
groups that eschew such outward signaling—a form of religious discrimination that the First Amendment emphatically prohibits. E.g., Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah, 508 U.S. 520, 532 (1993); Fowler v.
Rhode Island, 345 U.S. 67, 69-70 (1953). By deferring to
different religious groups’ good-faith explanations of
which individuals perform functions necessary to a religious mission, this approach also avoids protracted litigation and judicial second-guessing of whether religious
groups have correctly characterized tenets of their faith.
See Sterlinski, 934 F.3d at 570.

14
II. Respondents’ and the Ninth Circuit’s Approach Would
Threaten Myriad Religious Communities

1. “The Constitution leaves it to the collective conscience of each religious group to determine for itself who
is qualified to serve as a teacher or messenger of its faith,”
because those functions are so critical to the survival of
the faith. Hosanna-Tabor, 565 U.S. at 202 (Alito, J. concurring). But narrowing the ministerial exception, as respondents’ and the Ninth Circuit’s position would do,
usurps that authority from religious groups and vests it in
the government.
Respondents’ and the Ninth Circuit’s approach

wrongly proceeds as though Hosanna-Tabor set forth an
inflexible checklist against which courts should evaluate
an employee’s religious bona fides. Respondents contend
that the Ninth Circuit properly applied Hosanna-Tabor
in the decisions below because it assessed each of the
“four considerations” the Court mentioned, namely
(1) “whether the employer held the employee out as a minister by bestowing a formal religious title”; (2) “whether
the employee’s title reflected ministerial substance and
training”; (3) “whether the employee held herself out as a
minister”; and (4) “whether the employee’s job duties included ‘important religious functions.’” OLG Br. in Opp.
to Cert. 21 (citing OLG. App. 2a); see StJ. Br. in Opp. to
Cert. 30-33 (contending the Ninth Circuit in Biel properly
applied “the four considerations enumerated by the Supreme Court in Hosanna-Tabor”).
In respondents’ view, the Ninth Circuit properly sided
with respondents because the first three “factors” favored
respondents while only the fourth “factor” favored petitioners, and three is greater than one. See OLG Br. in
Opp. to Cert. 20-21; StJ. Br. in Opp. to Cert. 31-34. But

15
treating Hosanna-Tabor like a scorecard perversely requires religious organizations to standardize the way they
identify those who minister to their faithful, without regard to whether particular metrics matter to a particular
faith.
For example, in declining to apply the ministerial exception, the Ninth Circuit found it persuasive that Morrissey-Berru did not have “religious credential [or] training,” because she had taken only a “single course on the
history of the Catholic church.” OLG. App. 3a. But by
looking for a type and level of training similar to the college-level religion courses and oral examination required
to be a “commissioned minister” in the Lutheran faith, the
Ninth Circuit discounted the various ways in which individuals might be called to serve their faith and carry out
core responsibilities. See, e.g., Sterlinski, 934 F.3d at 572
(church organist); Cannata, 700 F.3d at 178 (church music
director); see also Temple Emanuel, 975 N.E.2d at 443
(ministerial exception applied to teacher in Jewish school
despite no record of formal religious training).
2. Respondents’ and the Ninth Circuit’s box-checking
approach to the ministerial exception would also threaten
courts’ ability to accept a religious group’s sincere statement that particular employees are indeed performing religious functions. That approach would let the government dictate employment criteria for employees of religious groups entrusted with elemental functions of the
faith. So long as the religious group does not affix formal
labels to those employees, put them through formal training, and outwardly represent those employees as “minister” equivalents, it would not matter how strenuously a
religious group proclaimed that the employee’s duties are
central to the faith. Supra pp. 10-12; Pet. Br. 37-41.

16
In other words, religious traditions whose employees
fail to conform perfectly to all the facts of Hosanna-Tabor
can find no refuge in the ministerial exception. OLG. App.
2a-3a. That one-size-fits-all approach to the ministerial
exception would compromise many religious organizations’ “freedom to speak in [their] own voice, both to
[their] own members and to the outside world.” Hosanna-Tabor, 565 U.S. at 201 (Alito, J. concurring).
Those problems are not mere abstractions. Respondents’ and the Ninth Circuit’s inappropriately rigid approach threatens a host of religious organizations with intolerable choices. As amici can attest, the ministerial exception is a critical safeguard for religious organizations
of all stripes to avoid being forced to litigate internal ecclesiastical disputes before civil courts. If respondents’
and the Ninth Circuit’s approach prevails, to invoke the
ministerial exception, any groups that do not already conform to the practices of the Lutheran Church would have
to adopt formal ordination, formal titles, formal religious
training, and other outward forms of recognition. Forcing
groups to adopt those outward signals of religious significance for the good of secular observers would amount to
the very “judicial rewriting of church law” that the First
Amendment abhors. Serbian E. Orthodox Diocese, 426
U.S. at 719.
There is no question that many groups would feel intense pressure to conform, but for the unconscionable
spiritual price. As Justice Thomas highlighted in his Hosanna-Tabor concurrence, a “bright-line test” like respondents’ and the Ninth Circuit’s as to who qualifies as a
“minister” might “cause a religious group to conform its
beliefs and practices regarding ‘ministers’ to the prevailing secular understanding.” 565 U.S. at 197 (Thomas, J.,
concurring). And “it is a significant burden on a religious

17
organization to require it, on pain of substantial liability,
to predict which of its activities a secular court will consider religious.” Corp. of Presiding Bishop of Church of
Jesus Christ of Latter-day Saints v. Amos, 483 U.S. 327,
336 (1987).
Consider the following: In declining to apply the ministerial exception in Biel v. St. James School, the Ninth
Circuit found it persuasive that there was “nothing religious reflected” in a Catholic school teacher’s title—
“Grade 5 Teacher.” StJ. App. 11a-12a; see OLG. App. 2a
(“Unlike the employee in Hosanna-Tabor, MorrisseyBerru’s formal title of ‘Teacher’ was secular.”). While
many religious organizations emphasize titles, many are
less formal or bestow titles that may not seem religious to
an outside observer. But to avoid costly litigation and governmental interference, a religious organization might be
tempted to add wording to the title of a specific position in
order to better signal to courts the important religious
functions that a position serves. In so doing, a church’s
“process of self-definition would be shaped in part by the
prospects of litigation.” Amos, 483 U.S. at 343-44 (Brennan, J., concurring). Such direct governmental influence
on the shaping of internal church affairs is untenable.
Refusing to yield to this judicial micromanagement of
church functions, however, would force religious groups
to confront a litany of other unconscionable consequences.
Disabled from invoking the ministerial exception, religious groups would be forced into civil courts to litigate
employment disputes with employees performing some of
the most critical functions of their faiths. Religious
groups could be plunged into expensive and invasive litigation and discovery, subject to the ever-present risk that
courts would scrutinize untold numbers of ecclesiastical
decisions leading up to the lawsuit. The “very process of

18
inquiry” could “impinge on rights guaranteed by the Religion Clauses.” NLRB v. Catholic Bishop of Chi., 440
U.S. 490, 502 (1979). Religious groups would face enormous pressure to screen applicants not only for requisite
spiritual qualities, but also for potential litigiousness—potentially altering the group’s preferred choice of candidates to perform its essential functions. By allowing the
absence of a formal title and training to defeat the ministerial exception, respondents’ and the Ninth Circuit’s approach would exclude even employees with job functions
whose religious significance is obvious.
Consider, for instance, chaplains in the Anglican
Church of North America, who are deployed to serve in a
variety of governmental, institutional, and vocational
settings, such as hospitals and the armed forces. Some
Anglican chaplains are ordained, some are endorsed
through organizations such as the Special Jurisdiction of
the Armed Forces and Chaplaincy, and some have no
formal religious status at all. The Church tailors an
individual chaplain’s ordination status and formal
training, if any, to the particular population the chaplain
will serve—whether that be in hospice, in a correctional
institution, or on a Naval warship. But, despite these
variations, the religious significance of the position
remains the same. Chaplains are deployed to provide
important ministries in worship, pastoral care, counsel,
and service channeled through their community—an
indisputably important religious function.
Or take certain employees of the Church of Jesus
Christ of Latter-day Saints, such as the Managing
Director for the Church’s Missionary Department, who
works directly with Church apostles in assigning,
organizing, and overseeing tens of thousands of Church
missionaries worldwide. In the Church’s view (and under

19
any objective standard), the person in this position carries
out vitally “important religious functions,” even though
the person lacks a “formal religious title” or even a title
that reflects “ministerial substance and training.” See
OLG. App. 2a. But under respondents’ and the Ninth
Circuit’s approach, that position and many others would
fall outside the ministerial exception unless the Church
were to change its internal governance by designating
novel titles and instituting religious training in
anticipation of judicial review.
Discounting an employee’s important religious functions in this manner would threaten religious groups’ “authority to select and control who will minister to the faithful”—a matter that is “strictly ecclesiastical” and is “the
church’s alone.” Hosanna-Tabor, 565 U.S. at 195 (quoting
Kedroff, 344 U.S. at 119). This Court should not abandon
religious groups to the choice of compromising their internal structures to qualify for the ministerial exception, or
accepting the government’s veto power over “who is qualified to serve as a voice for their faith.” Id. at 201 (Alito,
J., concurring).
CONCLUSION

The decisions of the United States Court of Appeals
for the Ninth Circuit should be reversed.

20
Respectfully submitted,
SARAH M. HARRIS
MATTHEW D. HEINS
SUSANNA R. ALLEN
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sharris@wc.com
Counsel for Amici Curiae
FEBRUARY 10, 2020

